                   U.S. Department of the Interior
                        Office of Inspector General


                         AUDIT REPORT




                                          NPS Photo




DOI’S 2005 HURRICANE RELIEF EXPENDITURES
         Report No. C-IN-MOA-0004-2006


                 March 2007
2005: DEVASTATING HURRICANE SEASON
The 2005 Atlantic hurricane season was the most
active in recorded history. The impact of the season
was widespread and devastating with at least 2,280
deaths and recorded damages of over $100 billion.
Five of the seven major hurricanes that made
landfall —Dennis, Emily, Katrina, Rita, and
Wilma—were responsible for most of the
destruction. The most catastrophic effects of the
season were felt on the Gulf Coast, where
Hurricane Katrina devastated a long stretch of coast
along Louisiana, Mississippi, and Alabama. The
storm caused levees to break resulting in
catastrophic flooding of 80 percent of New
Orleans, LA. The flood waters did not recede for
several weeks.

                                                        Flooded New Orleans, LA
                                                          Photo Courtesy of BOR

DOI’S PARTICIPATION IN THE NATIONAL RESPONSE PLAN
DOI’s commitment to the NRP lies in its participation in Emergency Support Functions
(ESFs). DOI’s responsibilities included:

   1. Acting as the primary agency responsible for
      ESF 11 - Agriculture and natural resources.          The National Response
                                                           Plan (NRP) establishes a
                                                           single, comprehensive
   2. Acting as a support agency for:                      framework for managing
                                                           domestic incidents. It
       ¾   ESF 1 - Transportation;                         provides the structure and
       ¾   ESF 2 - Communications;                         mechanisms for
       ¾   ESF 3 - Public works and engineering;           coordinating federal
       ¾   ESF 4 - Firefighting;                           support, management, and
       ¾   ESF 6 - Mass care, housing, and human           emergency assistance
                                                           activities to state, local,
           services;                                       and tribal incident
       ¾   ESF 10 - Oil and hazardous materials            managers.
           response;
       ¾   ESF 12 - Energy;
       ¾   ESF 13 - Public safety and security; and
       ¾   ESF 14 - Long-term community recovery and mitigation.




                                            2
DOI EMPLOYEES’ NOTEWORTHY RESPONSE
Approximately 6,100 DOI employees participated in rescue and relief efforts during the
massive federal response. For example:

   ¾ The National Park Service (NPS) and Fish and Wildlife Service (FWS) deployed
     hundreds of employees to provide humanitarian assistance to residents of the
     affected areas, clearing roadways, and establishing emergency corridors.
     Additionally, park and refuge sites were used as shelters and staging areas for
     search and rescue teams, supplies, and equipment.

   ¾ The U.S. Geological Survey (USGS) and FWS deployed 22 boats and 20
     employees to carry out rescue operations and deliver food and water to stranded
     individuals.

   ¾ USGS provided coordinates and maps for 911
     calls to assist rescuers in locating people in
     need. Over 9,000 calls were plotted on a
     single day.

   ¾ MMS provided 10 helicopters for search and
     rescue operations.

   ¾ Approximately 775 DOI employees were
     dispatched to the Gulf Coast as part of the
     interagency response of the National
     Interagency Fire Center. Trained as
     firefighters, these disaster assistance workers
     assisted the Federal Emergency Management
     Agency (FEMA) in managing recovery efforts.

                                                                   Rescue Operations
                                                                    Photos Courtesy of
                                                                    BOR




                                           3
DOI’S BUREAUS HIT HARD BY HURRICANES
DOI has significant facilities in the areas hit hard during the 2005 hurricane season. NPS
sustained damage to 12 parks and preserves, FWS had damage to 86 refuges, and USGS
had 68 water monitoring gauges damaged.

                             When Hurricane Katrina made landfall, MMS’ Gulf of
                             Mexico Regional Office was severely damaged—the
                             building’s roof collapsed allowing rain to ravage the top
                             floors. Because of the extensive water and mold damage,
                             temporary offices were quickly set-up in Houston where
                             some employees were relocated so MMS could continue its
                             mission and work with energy companies to help restore oil
                             and gas production in the Gulf of Mexico region.
MMS Building Damaged
  Photo Courtesy of MMS




               Debris-laden street                  Damage inside MMS building
               Photo Courtesy of BOR                     Photo Courtesy of MMS

The blow to MMS and its workers was unprecedented. Almost half of its New Orleans
area employees suffered complete or nearly complete destruction of their homes.

FINANCIAL IMPACT FOR DOI
As of September 2006, the Department spent approximately $61 million in support of the
NRP, of which approximately $56 million was reimbursable by FEMA. The remaining
$5 million was paid from the bureaus’ appropriations. DOI also spent $43 million to
respond to and address internal property damage.

Four bureaus received approximately $283 million in supplemental appropriations from
Congress to address damage to their facilities. As of September 2006, the bureaus had
obligated approximately $117 million, or 41 percent, of the $283 million received in
supplemental appropriations. The breakdown by bureau is as follows:




                                            4
                 FUNDING AND OBLIGATIONS AS OF SEPTEMBER 30, 2006
                          Supplemental       Amount       Percent
                Bureau     Funding *       Obligated *     Spent
                FWS           $162            $ 65         40%
                NPS             74              28         38%
                MMS             31              16         52%
                USGS            16               8          50%
                Total         $283            $117         41%

               * In millions

WHY WE DID THIS AUDIT
Due to the high risk of fraud associated with disaster-related expenditures, the Inspector
General community took steps to provide timely oversight. The President’s Council on
Integrity and Efficiency (PCIE) coordinated efforts among the agency Inspectors
General. Our office participated in this overall PCIE effort by providing information on
DOI recovery efforts. Additionally, we planned a series of audits intended to timely
review DOI’s disaster-related expenditures. This audit addressed the appropriateness of
expenses incurred during the initial disaster response. Our next audit will address the
rebuilding and reconstruction of DOI facilities in the affected areas.

The objective of this audit was to determine whether DOI and its bureaus were ensuring
that expenditures for hurricane relief efforts were reasonable, necessary, and properly
recorded. Specifically:

     ¾         Did the bureaus have internal controls in place for procurement of goods
               and services in emergency situations?

     ¾         Were expenditures directly related to hurricane relief efforts and allowable
               within applicable guidelines?

     ¾         Did the bureaus accurately account for expenditures?

RESULTS OF AUDIT
Overall, we found that the bureaus effectively managed their 2005 hurricane-related
expenditures. Specifically:

     ¾         The bureaus had adequate controls in place for procurement of goods and
               services in emergency situations.

     ¾         Purchases classified as hurricane-related were related to hurricane
               response and recovery and were reasonable and necessary.




                                             5
     ¾        Bureaus accounted for hurricane expenditures accurately; however, there
              were delays in the proper classification of expenses as hurricane-related.

Given the magnitude of the damage sustained to the Gulf Coast region and DOI facilities,
the issues we found through our expenditure testing were relatively insignificant.

     ¾        Less than one percent of the transactions we reviewed were improperly
              classified as hurricane-related.

     ¾        At the time of our fieldwork, 22 percent of the hurricane expenditures we
              tested had not been properly classified in the accounting systems. The
              accounting systems were not designed to automatically capture and
              classify hurricane-related expenditures. Throughout our audit, the bureaus
              continued to manually identify and reclassify expenditures.

     ¾        We found only one instance in which it appeared that an employee
              submitted questionable travel expenses for reimbursement. We referred
              the case to our investigations office for further action.

LESSONS LEARNED

While we did not find any significant issues with the nature or allowability of
expenditures, we noted areas where the bureaus could improve their processes for
disaster related expenditures. The bureaus were
already aware of most of these issues and had
developed lessons learned documents identifying
potential opportunities for improvement. The
bureaus would also benefit from suggestions
developed by the PCIE for agencies faced with future
disasters.

          NPS facility before hurricane
             Photo Courtesy of NPS




                                                            Same area after hurricane
                                                                Photo Courtesy of NPS


Below we highlight two significant areas where lessons learned could result in
improvements to future responses to disasters. The bureaus also developed other lessons




                                           6
learned that should be shared among the bureaus and with other departments as
appropriate and considered for implementation.

Timely Classifying Disaster-Related Expenditures

It is critical that bureaus promptly account for expenditures to:

     ¾         provide accurate and timely reports to the Congress,

     ¾         facilitate reimbursement from FEMA,

     ¾         support supplemental budget requests, and

     ¾         strengthen the bureau significant acquisition review boards’ ability to
               provide effective oversight.

Most of the classification delays that we identified were caused by the bureaus’ processes
for recording credit card transactions. Each credit card is assigned a default accounting
code. All transactions paid by that credit card are automatically classified with the
default accounting code. However, the hurricane charges needed to be separately
identified. Each bureau must manually identify hurricane-related charges and reclassify
them in the accounting systems. Due to the extreme circumstances, there were delays in
identifying and reclassifying these expenditures.

The bureaus identified actions they could take to streamline this process. For example:

     ¾         During emergencies, bureaus could change default codes for credit cards
               to pre-established, disaster-specific accounting codes. This would
               automatically classify expenditures as disaster-related in the accounting
               systems, eliminating the need to manually identify and reclassify them.

     ¾         Bureaus could establish designated purchase cards to be used for
               emergency situations.

Shortly after Hurricane Katrina, DOI directed the             Significant Acquisition Criteria
bureaus to establish review boards to monitor
significant acquisitions related to the recovery efforts.       ¾   Contracts $500,000 or more
The PCIE noted in a recent report that this type of             ¾   Credit Card transactions
control could improve the integrity of post-disaster                $15,000 or more
procurement.
                                                                ¾   Convenience Checks
Although DOI was proactive in establishing these                    $2,500 or more
boards, the delays in the classification of hurricane-          ¾   Any transaction made within
related expenditures hampered the boards’ ability to                14 working days of the
provide effective oversight. Instead of independently               hurricane
extracting the applicable transactions from the
                                                                ¾   Any acquisitions deemed
                                                                    risky

                                              7
accounting systems, the boards relied on field staff to identify and submit their own
transactions for review. Although the boards did not review many transactions that met
the significant acquisition criteria, we did not find substantive problems with
departmental expenditures overall. By implementing actions to more promptly classify
disaster-related expenditures, thus allowing for independent extraction of accurate reports
by the review boards themselves, bureaus could strengthen the boards’ independent
oversight.

Expediting Disaster-Related Contracts

During emergency situations, time is of the essence. After Hurricane Katrina, DOI
focused on its critical response and recovery activities. These activities should not be
                                         delayed by unnecessary administrative processes
                                         for negotiating and awarding contracts.
                                         However, DOI still needs to ensure that it
                                         receives the best value for contracted goods and
                                         services and that it protects the government from
                                         fraud, waste, and abuse during emergencies. To
                                         reduce these delays the PCIE recommended that
                                         federal agencies maximize the use of advance
                                         contracts to the extent practical while ensuring
                                         that adequate controls are maintained. An
                                         advance contract is a standing agreement for
                                         specific vendors to provide emergency-related
                                         goods and services as necessary. The PCIE also
                                         recommended that federal agencies provide
                                         sufficient numbers of trained field-level
                                         contracting staff and Contracting Officer
                                         Technical Representatives to meet mission
                                        requirements. The bureaus may benefit from
       Damaged NPS Facility             implementing these practices to ensure that vital
       Photo Courtesy of NPS            services are not needlessly delayed.



SUGGESTED ACTION

We suggest that the Assistant Secretary for Policy, Management and Budget direct
bureaus to review and revise emergency response financial procedures to incorporate
lessons learned during the 2005 hurricane season.




                                             8
MANAGEMENT VIEWS
During an exit conference held on March 8, 2007, management expressed appreciation
for the audit and agreed with our conclusions that controls were adequate, purchases were
reasonable and necessary, and expenditures were accounted for accurately. Management
stated that it will continue to review its processes and procedures for improvement
opportunities, especially concerning timely classification of disaster-related expenditures
when suspense accounts must be used to facilitate immediate action.

CONCLUSION
We appreciate the cooperation shown by Departmental staff during our audit. Because
we are not making any formal recommendations, a response to this report is not required.
However, we would appreciate if you would keep us informed on any actions taken to
implement our suggestion.

The legislation, as amended, creating the Office of Inspector General requires that we
report to the U.S. Congress semiannually on all audit reports issued, actions taken to
implement our recommendations, and recommendations that have not been implemented.

If you have any questions regarding this report, please call me at (202) 208-5745.




                                            9
                                                                             Appendix 1

                        SCOPE AND METHODOLOGY
We audited expenditures related to the response and recovery efforts for the 2005
hurricane season as of March 31, 2006. Our scope included DOI and four bureaus:
MMS, FWS, NPS, and USGS. We selected these bureaus because they had the largest
dollar amount of non-reimbursable expenditures at the time of our field work, which is
where we determined the high risk of inaccurate reporting would occur.
To accomplish our objectives, we:

     ¾        Reviewed the laws and regulations that prescribe the requirements for
              federal procurement and contracting in emergency situations, including
              the federal procurement regulations, departmental regulations, and bureau
              guidance.
     ¾        Conducted site visits and interviewed staff from DOI and the bureaus we
              reviewed to complete the prescribed audit work.
     ¾        Reviewed internal controls in place for contracts, purchase cards, and
              travel cards to ensure they were adequate for procurement of goods and
              services in emergency situations.
     ¾        Reviewed hurricane expenditures and related supporting documentation to
              determine if they were directly related to hurricane relief efforts,
              reasonable, and allowable within applicable guidelines.
     ¾        Reviewed expenditure and supporting documentation to ensure all
              expenses related to the 2005 hurricane response and recovery efforts were
              accurately accounted for as hurricane expenses.
     ¾        Reviewed prior audit reports, President’s Council on Integrity and
              Efficiency reports, and various other reports issued by the Department and
              its bureaus providing suggested improvements to managing the hurricane
              relief effort.
     ¾        Reviewed the fiscal year 2005 DOI’s Annual Report on Performance and
              Accountability. Although the report contained no weaknesses within the
              objectives and scope of our audit, it identified financial management as
              one of the Department’s major management challenges.
     ¾        Reviewed the DOI’s Strategic Plan for fiscal years 2003-2008, and found
              that there were no specific goals or measures related to hurricane relief
              efforts.

Our expenditure testing was performed on samples of contracts, purchase cards, and
travel card expenditures. The samples were selected as follows:




                                           10
     ¾         Non-statistical sample of contracts: To select the sample, we stratified the
               universe based on contract dollar value. We identified contracts with the
               top ten dollar amounts for each of the bureaus. From the top ten list, we
               selected contracts to review based on factors such as dollar value and
               location of records. We reviewed 37 contracts totaling $8,430,434, or
               61% of the total contract universe.

     ¾         Non-statistical sample of purchase card holders: To select the sample, we
               stratified the universe based on purchase card holder. We identified the
               top ten card holders with the most usage for each of the bureaus. From the
               top ten list, we selected purchase card holders to review based on factors
               such as dollar value and location of records. We reviewed all transactions
               for 19 cardholders, representing $2,447,034, or 36% of the total universe
               of purchase card expenditures.

     ¾         Non-statistical sample of travel card holders: We selected 28 travel card
               holders out of 529 MMS and FWS employees identified as relocated or on
               administrative leave because of the hurricanes. We reviewed all
               transactions for the sampled card holders, totaling $312,969.

Because we did not select statistical samples, the results of our audit steps cannot be
projected to the entire population of expenditures. However, the results of our work
support our conclusions that overall, the bureaus effectively managed their 2005
hurricane-related expenditures.

Our scope did not include a review of property receipts for goods and services received
by each bureau. We did not review personnel costs related to response and recovery,
such as the salary and benefits for employees sent to affected areas. Additionally, we did
not audit the accuracy of reimbursable claims for work performed under the National
Response Plan.

We performed our audit from March 2006 through February 2007. We conducted our
audit in accordance with Government Auditing Standards, issued by the Comptroller
General of the United States.




                                             11
                                                                                 Appendix 2

                               RELATED REVIEWS

We reviewed audit reports issued by other federal agencies that address issues related to
our audit.

   ¾ In November 2006, the President’s Council on Integrity and Efficiency (PCIE)
     issued a report titled Oversight of Gulf Coast Hurricane Recovery – A Semiannual
     Report to Congress. The key issues pertaining to procurement were lessons
     learned by federal agencies in the aftermath of the hurricanes. The report
     suggested that agencies:

                 •      Use advanced contracts.

                 •      Monitor post-disaster procurement.

                 •      Provide sufficient staff to meet mission requirements.

   ¾ In September 2006, the Department of Justice Office of Inspector General issued
     a report titled Department of Justice - Purchase Card Expenditures Related to
     Hurricane Recovery Efforts (Report No. 06-36). The overall finding of this report
     was similar to ours; they concluded that nearly all the hurricane-related purchase
     card transactions were authorized and valid.

   ¾ In November 2005, the Government Accountability Office issued a report titled
     Hurricanes Katrina and Rita Contracting for Response and Recovery Efforts by
     the Government Accountability Office (Report No. GAO-06-235T). The key
     issues in the report were that agencies must have:

                 •      Sound acquisition plans.

                 •      Sufficient knowledge to make good business decisions.

                 •      The means to monitor contractor performance and ensure
                        accountability based from a preliminary conclusion to ensure
                        good contracting outcomes.




                                            12
                                                                         Appendix 3

                    LOCATIONS VISITED/CONTACTED
Department of the Interior:

     Office of Acquisition and Property Management      Washington, DC
     Office of Budget                                   Washington, DC
     Office of Financial Management                     Washington, DC
     Office of Law Enforcement Services                 Washington, DC

Bureau of Reclamation:

     Incident Commander                                 Denver, CO

Fish and Wildlife Service:

     Branch of Policy and Information                   Arlington, VA
     Management
     Headquarters Washington D.C. - Region 9            Arlington, VA
     Southeast Regional Office - Region 4               Atlanta, GA
     Southwest Regional Office - Region 2               Albuquerque, NM

Minerals Management Service:

     Administration and Budget                          Herndon, VA
     Procurement Division                               Herndon, VA
     Budget Division                                    Arlington, VA*
     Gulf of Mexico OCS Region                          Metarie, LA
     New Orleans District Office                        Metarie, LA

National Park Service:

     Accounting Operations Center                       Herndon, VA
     Budget Execution Division                          Washington, DC
     Everglades National Park                           Homestead, FL
     Gulf Islands National Seashore                     Pensacola, FL
     Mammoth Cave National Park                         Mammoth Cave National
                                                        Park, Kentucky
     Martin Luther King, Jr. National Historical Site   Atlanta, GA
     Sequoia National Park                              Sequoia National Park,
                                                        California*
     Shenandoah National Park                           Luray, VA
     Sitka National Historical Site                     Sitka, Alaska*

* Contacted via telephone


                                           13
     Washington Contracting Office             Denver, CO
     Southeast Region Office                   Atlanta, GA
     Washington Contracting and Procurement    Washington, DC
     Office

U.S. Geological Survey:

     Office of Budget and Performance          Reston, VA
     Office of the Director                    Reston, VA
     Administrative Policy and Services        Reston, VA
     Office of Fiscal Services                 Reston, VA

Department of Homeland Security:

     Office of Inspector General               Washington, DC*

* Contacted via telephone




                                          14
  Report Fraud, Waste, Abuse,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
              allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 5341 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free               800-424-5081
                  Washington Metro Area           703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline




                             15
